                               .
                                       Closeout for M98110039
    ~ n o ~ o v e m b1998,
                      e r we were informed of concerns about the high-pressure working
    environment' for students in the laboratory of a PI^ who receives significant support from
    NSF. We spoke with the PI's program officer and agreed that there was no indication that
    the working environment in the PI's laboratory was so unusual as to warrant our
    involvement. We learned that the PI's university had been in the process of taking actions to
    address the stress associated with graduate student life. We determined that the
    circumstances of this matter did not require furthe; inquiry by our office. This case is closed.


    Cc: Integrity, IG




I



C                          a faculty rnernkr -niversity.


                                            Page 1 of 1                          M98-39
